                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Should Increase
                     Fixed-Price Contracting for
                     Remedial Actions
                     Report No. 13-P-0208                    March 28, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Michael Petscavage
                                                   Melinda Burks
                                                   David Penman
                                                   Doug LaTessa




Abbreviations

CO          Contracting Officer
CPFF        Cost-Plus-Fixed-Fee
EAS         EPA Acquisition System
EPA         U.S. Environmental Protection Agency
FAR         Federal Acquisition Regulation
GAO         U.S. Government Accountability Office
IDIQ        Indefinite-Delivery/Indefinite-Quantity
LTRA        Long Term Remedial Action
OAM         Office of Acquisition Management
OARM        Office of Administration and Resources Management
OIG         Office of Inspector General
OMB         U.S. Office of Management and Budget
OSRTI       Office of Superfund Remediation and Technology Innovation
OSWER       Office of Solid Waste and Emergency Response
QAP         Quality Assessment Plan
RAC         Remedial Action Contract
RI/FS       Remedial Investigation/Feasibility Study
T&M         Time-and-Materials




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:     OIG_Hotline@epa.gov                     write:    EPA Inspector General Hotline
  phone:      1-888-546-8740                                    1200 Pennsylvania Avenue, NW
  fax:        202-566-2599                                      Mailcode 2431T
  online:     http://www.epa.gov/oig/hotline.htm                Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0208
                                                                                                          March 28, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Should Increase Fixed-Price Contracting
We conducted this review to         for Remedial Actions
determine if the U.S.
Environmental Protection             What We Found
Agency (EPA) is reducing the
amount of high risk contracting     EPA continues to rely on high risk cost-reimbursement contracts and time-and-
activities for remedial actions.    materials task orders in the Superfund remedial program. The President, U.S.
In the cleanup of Superfund         Office of Management and Budget, Congress, and U.S. Government
sites, EPA uses a variety of        Accountability Office have called for a reduction in high risk contracts. Resistance
instruments (such as contracts,     to change, regional program office pressure, lack of leadership, and lack of trained
cooperative agreements, and         qualified staff have contributed to the reliance on high risk contracts. Reducing the
interagency agreements) to          reliance on these contracts can result in numerous benefits, including cost
obtain Superfund remedial           savings, increased competition, and achievement of socio-economic goals.
services. One such instrument
used in procuring these             Additionally, the EPA Acquisition System (EAS) contains inaccurate contract and
services is the Remedial Action     task order types. Specifically, 5 of 17 contracts and 22 of 60 task orders and work
Contract (RAC). The Agency          assignments reviewed had an incorrect contract or award type listed in EAS. The
had expenditures of almost          inaccurate data in EAS is due to the lack of a specific EAS data quality plan and a
$570 million for remedial           decentralized quality assessment process. As a result, EPA is misreporting
actions under RAC contracts         contract and spending information to the public.
for fiscal years 2007 through
2011.                                Recommendations and Planned Agency Corrective Actions

                                    We recommend that EPA require written acquisition plans for cost reimbursement
This report addresses the           RAC contracts be approved by the Head of the Contracting Activity. We also
following EPA Goals or              recommend that EPA develop performance measures and goals for each region
Cross-Cutting Strategies:           for the use of fixed-price contracts and task orders, and recommend that EPA
                                    provide training to staff on how and when less risky contracts and task orders
 Cleaning up communities           should be used. Finally, we recommend that EPA determine whether staffing
  and advancing sustainable         changes are needed in each region to ensure that staff have the skills to manage
  development.                      the increased use of fixed-price contracts and task orders and develop a data
 Strengthening EPA’s               quality plan for EAS to ensure the adequacy of data across all regions.
  workforce and capabilities.
                                    EPA agreed in principle to the objectives of the report – to improve acquisition
                                    planning and increase the use of fixed price contracts where appropriate. EPA
                                    concurred with two of our recommendations but disagreed or did not respond to
                                    four others. EPA did agree to provide training on how and when less risky
                                    contracts and tasks orders are appropriate. EPA indicated that the decision on
                                    contract type must be made on a case-by-case basis and did not agree with
For further information, contact    requiring certain contract types or setting performance measures for fixed price
our Office of Congressional and     contracting. We revised one of the draft report recommendations to not require a
Public Affairs at (202) 566-2391.   certain contract type, but to elevate the responsibility for approving future cost-
                                    reimbursable RAC contracts.
The full report is at:
www.epa.gov/oig/reports/2013/
20130328-13-P-0208.pdf               Noteworthy Achievements

                                    EPA Region 7 is implementing the vision of the original Contracts 2000 Strategy to
                                    increase the use of fixed price contracting for Superfund remedial actions.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL




                                         March 28, 2013

MEMORANDUM


SUBJECT:	 EPA Should Increase Fixed-Price Contracting for Remedial Actions
          Report No. 13-P-0208


FROM:          Arthur A. Elkins Jr.


TO:	           Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

               Mathy Stanislaus, Assistant Administrator 

               Office of Solid Waste and Emergency Response 



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
EPA agreed with two recommendations and provided corrective actions with completion dates,
and these recommendations are considered resolved. For the other four recommendations, the
Agency either disagreed or the response did not address the recommendation, and these will be
resolved through the audit resolution process. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, the resolution process begins immediately with the
issuance of this report. We are requesting a meeting within 30 days between the Director, Office
of Acquisition Management; Director, Office of Superfund Remediation and Technology
Innovation; and the OIG’s Assistant Inspector General for Audit. If resolution is still not reached,
the Assistant Administrator for Administration and Resources Management and the Assistant
Administrator for Solid Waste and Emergency Response are required to complete and submit the
dispute resolution request to the Chief Financial Officer to continue resolution.
We have no objections to the further release of this report to the public. We will post this report
to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper, Product Line Director, at (312) 886-3059 or kasper.janet@epa.gov.
EPA Should Increase Fixed-Price Contracting                                                                                 13-P-0208
for Remedial Actions


                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                4     

                Scope and Methodology ..............................................................................               4     


   2    EPA Continues to Rely on High Risk Contracts for Remedial Actions.........                                                 8


                Federal Government Encouraged to Limit High Risk Contracts ..................                                      8

                EPA Continues Reliance on High Risk Contracts and Task Orders
                   for Remedial Actions .............................................................................              9

                EPA Culture Encourages Status Quo .........................................................                       10 

                EPA Missing Out on the Benefits of Fixed-Price Contracting ......................                                 14 

                Recommendations ......................................................................................            15     

                Agency Response and OIG Evaluation .......................................................                        16 


   3    Inaccurate Contract Data...................................................................................               18 


                OMB’s Open Government Directive Requires Data Quality ........................                                    18 

                Incorrect Contract and Task Order Types Listed in EAS.............................                                19 

                Lack of a Specific Data Quality Plan for EAS and a Decentralized
                   QAP Process Led to Data Integrity Issues ............................................                          19 

                EPA Is Misreporting Vital Contract and Spending Information ....................                                  20 

                Recommendations ......................................................................................            20     

                Agency Response and OIG Evaluation .......................................................                        20 


   Status of Recommendations and Potential Monetary Benefits..............................                                        22




Appendices
   A	   Sampled Contracts, Task Orders, and Work Assignments for 

        Data Integrity ......................................................................................................     23 


   B	   Agency Response to Draft Report and OIG Evaluation..................................                                      25 


   C	   Distribution .........................................................................................................    37 

                                       Chapter 1

                                        Introduction
Purpose
               In recent years, the President, U.S. Office of Management and Budget (OMB),
               Congress, and U.S. Government Accountability Office (GAO) have raised
               concerns or called for a reduction in high risk contracts. The U.S. Environmental
               Protection Agency (EPA) Office of Inspector General (OIG) conducted this audit
               to determine whether EPA is reducing the amount of high risk contracting
               activities for remedial actions.

Background
               Superfund Cleanup Process

               Congress enacted the Comprehensive Environmental Response, Compensation,
               and Liability Act, commonly referred to as “Superfund,” to address threats to
               human health or the environment resulting from releases or potential releases of
               hazardous substances. EPA has primary responsibility for managing cleanup and
               enforcement activities under Superfund.

               EPA’s Superfund cleanup process can be lengthy; it can sometimes take decades
               to clean up the contamination. The cleanup process involves a series of steps
               during which specific activities take place or decisions are made (figure 1).

 Figure 1: Superfund cleanup phases




Source: GAO Report GAO-12-109, January 2012.

               During the site assessment process, EPA and states collect data to identify,
               evaluate, and rank hazardous waste sites based on Hazard Ranking System
               criteria. Using these criteria, EPA conducts a preliminary assessment and, if


13-P-0208                                                                                          1
            warranted, a site inspection to determine whether the site warrants short- or long-
            term cleanup attention. Sites that EPA determines are among the nation’s most
            seriously contaminated hazardous waste sites are placed on the National Priorities
            List for attention under the Superfund program.

            After a site is placed on the National Priorities List, the remedial process begins
            with a two-part study of the site: (1) a remedial investigation to characterize site
            conditions and assess the risks to human health and the environment, and (2) a
            feasibility study to evaluate various options to address the problems identified
            through the remedial investigation. The culmination of these studies is a record of
            decision, which identifies the selected remedy for addressing the site’s
            contamination and a cost estimate for implementing the remedy. EPA or the
            primary responsible party may develop preliminary estimates of construction
            costs and, as the site moves from the study phase into the remedial action phase, a
            more accurate cost estimate may be developed. The method of implementation for
            the selected remedy is then developed during remedial design and implemented
            during the remedial action phase, when actual cleanup of the site occurs.

            When all construction of the cleanup remedy at a site is finished, all immediate
            threats have been addressed, and all long-term threats are under control, EPA
            generally considers the site to be “construction complete.” Sites where additional
            work is required after construction is completed then enter into the post
            construction phase, which includes actions such as operation and maintenance and
            conducting 5-year reviews. When EPA determines that no further site response is
            appropriate, it deletes the site from the National Priorities List.

            Remedial Action Contracts (RACs)

            In the cleanup of Superfund sites, EPA uses a variety of instruments such as
            contracts, cooperative agreements, and interagency agreements to obtain services
            to assist in the remediation of Superfund sites. EPA awards contracts for remedial
            services using RACs, which are full service contracts that provide all services
            needed in the Superfund cleanup process. The services include program support
            (management); remedial investigation and feasibility studies; engineering services
            to design remedial actions; and engineering services for construction oversight.
            RAC contractors may also provide technical and management services supporting
            EPA’s coordination and/or oversight of remedial activities performed by a State,
            the U.S. Army Corps of Engineers, or responsible parties identified in
            enforcement actions. Overall, the Agency had expenditures of almost $570
            million for remedial actions under RAC contracts for fiscal years 2007 through
            2011.

            Contracts 2000 Strategy

            The Office of Solid Waste and Emergency Response (OSWER), in conjunction
            with the Office of Acquisition Management (OAM) within the Office of



13-P-0208                                                                                          2
            Administration and Resources Management (OARM), developed the Superfund
            Contracts 2000 Strategy Report (Contracts 2000 Strategy) to formulate the
            structure of the Superfund contracting program for the year 2000 and beyond. The
            central purpose of the strategy was to develop a portfolio of contracts for the
            future that best met program needs while using the best procurement practices.
            The strategy established the following goals:

                  Balance national consistency with regional flexibility.
                  Introduce more competition into the contracting process.
                  Increase small-, minority-, and women-owned business participation in the
                   Superfund contracting program.
                  Adopt new contracting vehicles and methods such as performance-based,
                   multiple award, and fixed-price contracting.

            While the strategy kept most of the existing contract infrastructure in place, it
            shifted away from large, full service contracts such as RACs to functionally
            focused contracts for design and construction services. The Agency stated that
            functional contracts sized and focused on specific activities should reduce
            infrastructure costs and allow for greater competition.

            The Agency stated in the Contracts 2000 Strategy that it planned to split up the
            requirements previously consolidated under the RACs to allow more firms,
            especially small businesses, to participate in the program and increase
            competition. The rationale was that smaller contracts can be more readily
            adaptable to changing program requirements and increase opportunities for the
            use of fixed-price, completion form, and performance-based contracting.

            Subsequent to issuing the Contracts 2000 Strategy, the Agency changed the
            strategy to a menu approach, allowing regions to choose from a variety of contract
            methods and types, including the full service RACs.

            Contracts 2010 Strategy

            As the successor to the Contracts 2000 Strategy, OSWER and OAM established
            the Contracts 2010 Strategy in March 2011. This strategy has seven goals,
            incorporating those highlighted in the previous Contracts 2000 Strategy and
            adding others that reflect new program directions and heightened government-
            wide concerns for efficiency and procurement process improvements. This
            strategy sets the Agency’s framework for acquisitions in support of the Superfund
            program activities for the next 10 years. The seven goals are:

                  Balance national consistency with local flexibility.
                  Ensure that there is appropriate competition in the contracting process.
                  Increase participation of all socio-economic concerns in the Superfund
                   contracting program.
                  Implement green policies and procedures.


13-P-0208                                                                                        3
                  Identify and implement opportunities and initiatives for process and cost
                   efficiencies.
                  Identify the full range of vehicles or instruments available for obtaining
                   services for the Superfund cleanup programs.
                  Mitigate high risk contracting practices.

            To achieve the goal of mitigating high risk contracting practices, the Agency
            identified funding obligated to high risk contacts. The intent is to identify new and
            existing acquisitions that may be converted to less risky vehicles. To mitigate
            risks associated with high risk contracts, the Agency identified as a best practice
            issuing fixed-priced orders against indefinite-delivery/indefinite-quantity (IDIQ)
            contracts, when possible.

Noteworthy Achievements
            Region 7 implemented the vision of the original Contracts 2000 Strategy. For
            example, the region is breaking out the construction portion of the remedial action
            and contracting for it directly instead of having the RAC contractor manage it.
            This allows the region to compete each remedial action, taking advantage of
            increased competition. Region 7 has trained and hired the staff needed to award
            and manage fixed-price contracts for remedial actions. As of May 2012, Region 7
            had awarded 38 site specific contracts since 2005. We reviewed all of these
            contracts and determined that only one was not a fixed-price type contract.
            Region 7’s transition to site specific contracts has resulted in fewer high risk
            contracts, increased competition, and greater achievement of socioeconomic
            contracting goals.

Scope and Methodology
            We conducted this audit from September 2011 to January 2013 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objectives.

            We visited Regions 4, 7, and 9, and headquarters (which administers the RAC
            contracts for Regions 1 and 8). Regions 1, 4, and 9 use IDIQ RAC contracts,
            while Region 8’s RAC contracts are cost-plus-fixed-fee (CPFF). Region 7 uses
            mostly fixed-price contracts for remedial actions. Our goal was to gain a broad
            perspective of contracting for remedial actions across the country, which includes
            providing audit coverage of regions using IDIQ, cost-reimbursement, and fixed-
            price contracts. Including audit coverage of Regions 1, 4, 7, 8, and 9 gave us the
            broad perspective needed to form sound conclusions on the Agency’s remedial
            action contracting as a whole.



13-P-0208                                                                                           4
            We interviewed contracting and program staff in each of these five regions to
            document the processes used to select a contract type for remedial services and to
            discuss the types of remedial work performed. We also surveyed Superfund and
            contracting staff in the other regions to help us identify similar work across the
            country that could possibly be done as fixed-price or could be compared with
            similar work that we know has been done fixed-price elsewhere. In addition, we
            performed the following to answer our audit objective:

                Determined the type of RAC contracts in existence prior to the current
                   RAC contracts and compared to the most recent RAC contracts.
                Determined the number of fixed-price site specific remedial action
                   contracts since 2002.
                Determined the universe of IDIQ and cost-reimbursable RAC contracts.
                Determined the universe of RAC task orders or work assignments for
                   those regions we visited.
                Interviewed regional management and staff regarding their perspectives on
                   fixed-price and IDIQ contracts.
               	 Met with OSWER’s Office of Superfund Remediation and Technology
                   Innovation (OSRTI) and OAM to gain their perspectives on contract type,
                   and to obtain and discuss performance measures or goals related to RAC
                   contracts or the overall reduction of risky contract types.
                Determined how Regions 4 and 7 have overcome institutional resistance
                   and other barriers to using fixed-price contracting.
                Obtained additional information from Region 4 regarding its multiple
                   award solicitation.
                Obtained and analyzed acquisition plans for the RAC contracts.
                Determined if similar remedial actions existed within a region where EPA
                   used both a fixed-price and time-and-materials (T&M) contract or task
                   order to perform the selected remedy.

            For all five regions reviewed, we obtained a listing of task orders or work
            assignments awarded and developed a judgmental sampling methodology for each
            contract. We selected the task orders and work assignments for review if they met
            the following criteria: (1) the award was a remedial action; or (2) if there were
            less than five remedial action task orders or work assignments, then long term
            remedial actions (LTRA), remedial investigation/feasibility studies (RI/FS),
            remedial designs, oversight task orders, and 5-year reviews were also
            judgmentally selected for review. We also included in the sample fixed-price
            contracts awarded by Region 7. The following provides specific details on each
            region and the contracts, task orders, and work assignments selected for review.

               	 Region 1. Region 1 has two IDIQ RAC contracts. For contract EP-S1-06­
                  01, we judgmentally reviewed 8 of 53 task orders. The target population
                  was remedial action task orders. Because there were only three remedial
                  actions, we also judgmentally reviewed three LTRA task orders and two
                  remedial action oversight task orders to enlarge the sample size. For


13-P-0208                                                                                        5
                   contract EP-S1-06-03, we reviewed 8 of 64 task orders. We reviewed
                   three remedial actions and judgmentally reviewed four LTRA task orders
                   and one remedial design task order.

               	 Region 4. Region 4 has two IDIQ RAC contracts. For contract EP-S4-09­
                  02, we judgmentally reviewed 21 of 64 task orders. In addition to the 14
                  remedial action task orders, we judgmentally reviewed one 5-year review,
                  one removal support, one remedial action oversight, and four LTRA task
                  orders to enlarge the sample size. For contract EP-S4-08-03, we
                  judgmentally reviewed 4 of 25 task orders. Since there was only one
                  remedial action, we also reviewed one RI/FS task order, one remedial
                  design task order, and one risk assessment task order to enlarge the sample
                  size.

               	 Region 7. Because Region 7 was the one region implementing the
                  Contracts 2000 Strategy, we reviewed all 38 site specific contracts issued
                  between June 2005 and May 2012.

               	 Region 8. Region 8 has two cost-reimbursement RAC contracts. For
                  contract EP-W-06-006, we judgmentally reviewed three of the four
                  remedial action work assignments. For contract EP-W-05-049, we
                  reviewed the only two remedial action work assignments issued under the
                  contract.

               	 Region 9. Region 9 has two IDIQ RAC contracts. Since there was only
                  one remedial action for contract EP-S9-08-03, we also judgmentally
                  reviewed two LTRA task orders and two 5-year reviews to enlarge the
                  sample size. For contract EP-S9-08-04, we reviewed all five remedial
                  action task orders and judgmentally reviewed one 5-year review.

            For the above contracts, task orders, and work assignments reviewed, we
            determined whether the type was cost-reimbursement or fixed. We documented
            the type of work being performed and determined if similar scopes of work
            existed on fixed-price task orders or contracts. We also performed steps to review
            data quality issues discovered during preliminary research. These steps entailed
            comparing the contract, task order, and work assignment type within EPA’s
            systems to the type identified in the contract files for each contract, task order,
            and work assignment reviewed during our audit. We determined controls
            governing correct entry of this data and discussed with staff and management the
            reasons behind any discrepancies. Because we relied on source documentation,
            the data quality issues identified did not impact our conclusion regarding our
            primary audit objective.

            We reviewed internal and management controls in the context of the Agency’s
            process for selecting contract type in the remedial program. We obtained an




13-P-0208                                                                                         6
            understanding of this process through analysis of the laws, regulations, and
            guidance, as well as interviews.

            We also reviewed the most recent Federal Managers’ Financial Integrity Act
            assurance letters for OSWER and OARM, as well as GAO and OIG management
            challenges documents. EPA did not identify internal control weaknesses directly
            related to our audit objectives.

            Prior Audit Coverage

            EPA OIG

            In OIG Report No. 2005-P-00001, Response Action Contracts: Structure and
            Administration Need Improvement, dated December 6, 2004, the OIG
            recommended that the Agency develop and implement a plan for RACs that
            increases use of IDIQ and site specific contracts, and conduct a lessons learned
            analysis of the new IDIQ contracts. We followed up on this prior report during
            this audit and determined that the Agency did not fully implement these
            recommendations.

            GAO

            In GAO Report No. GAO-09-921, Contract Management: Extent of Federal
            Spending under Cost-Reimbursement Contracts Unclear and Key Controls Not
            Always Used, issued in September 2009, GAO reported that federal agencies
            obligate billions of dollars annually using cost-reimbursement contracts. GAO
            stated that this type of contract involves high risk for the government because of
            the potential for cost escalation and because the government pays a contractor’s
            costs of performance regardless of whether the work is completed. Additionally,
            GAO stated that cost-reimbursement contracts are suitable only when the cost of
            the work to be done cannot be estimated with sufficient accuracy to use fixed-
            price contracts. GAO made recommendations to OMB’s Office of Federal
            Procurement Policy aimed at encouraging timely analysis to determine if a
            transition can be made to contracts with a firmer pricing basis.




13-P-0208                                                                                        7
                                  Chapter 2

      EPA Continues to Rely on High Risk Contracts 

                 for Remedial Actions 

            EPA continues to rely on high risk cost-reimbursement contracts and T&M task
            orders in the Superfund remedial program. The President, OMB, Congress, and
            GAO have called for a reduction in high risk contracts. Resistance to change,
            regional program office pressure, lack of leadership, and lack of trained qualified
            staff have contributed to the overreliance on high risk contracts. Reducing
            reliance on these contracts can result in numerous benefits, including cost savings,
            increased competition, and achievement of socioeconomic goals.

Federal Government Encouraged to Limit High Risk Contracts

            Presidential and OMB Memorandums

            On March 4, 2009, President Obama issued a memo regarding federal contracting
            practices. The memo stated that cost-reimbursement contracts create a risk that
            taxpayer funds will be spent on contracts that are wasteful, inefficient, subject to
            misuse, or otherwise not well designed to serve the needs of the federal
            government or the interests of the American taxpayer. The memo directed OMB
            to issue guidance to govern the appropriate use and oversight of all contract types
            in full consideration of the agency’s needs, and to minimize risk and maximize
            the value of government contracts. On July 29, 2009, OMB issued a memo
            providing guidance to agencies to reduce high risk contracts. The memo stated
            that cost-reimbursement, T&M, and labor-hour contracts pose a risk because they
            provide no direct incentive to the contractor for cost control. However, a
            subsequent OMB memo provided examples of when cost-reimbursement
            contracts are appropriate (e.g., when there is considerable uncertainty about the
            resources that will be necessary to achieve the government’s objective).

            Congressional Action

            Section 864 of the Duncan Hunter National Defense Authorization Act for Fiscal
            Year 2009, PL 110–417, required that the Federal Acquisition Regulation (FAR)
            be revised to address the use of cost-reimbursement contracts. Specifically, the
            FAR addresses the following:

                  When and under what circumstances cost-reimbursement contracts are
                   appropriate.
                  The acquisition plan findings necessary to support a decision to use cost-
                   reimbursement contracts.
                  The acquisition workforce resources necessary to award and mange cost-
                   reimbursement contracts.


13-P-0208                                                                                          8
                 FAR 16.1

                 The FAR groups contract types into two broad categories: fixed-price contracts
                 and cost-reimbursement contracts. It further states that specific contract types
                 range from firm-fixed-price, in which the contractor has full responsibility for the
                 performance costs and resulting profit (or loss), to CPFF, in which the contractor
                 has minimal responsibility for the performance costs and the negotiated fee
                 (profit) is fixed. The FAR also states that contracting officers (COs) should avoid
                 protracted use of a cost-reimbursement or T&M contract after experience
                 provides a basis for firmer pricing.

                 FAR 16.3

                 The FAR states that the CO shall use cost-reimbursement contracts only when:
                 (1) circumstances do not allow the agency to define its requirements sufficiently
                 to allow for a fixed-price type contract, or (2) uncertainties involved in contract
                 performance do not permit costs to be estimated with sufficient accuracy to use
                 any type of fixed-price contract. Further, a cost-reimbursement contract may be
                 used only when specific factors have been considered and adequate government
                 resources are available to award and manage a contract other than firm-fixed­
                 price.

EPA Continues Reliance on High Risk Contracts and Task Orders for
Remedial Actions
                 Despite urging from the President, OMB, Congress, and EPA internal strategies
                 (Contracts 2000 and 2010 Strategies), only EPA Regions 4 and 7 have reduced
                 high risk contracting activities in the Superfund remedial program.1 As of June
                 2012, there were 24 RAC contracts. Of those 24 contracts, 12 (50 percent) were
                 high risk, CPFF contracts and 12 (50 percent) were IDIQ contracts. The 12 high
                 risk CPFF contracts were awarded from four EPA regional offices (Regions 2, 3,
                 5, and 8). Despite the inherent risks associated with these contracts, these four
                 EPA regional offices have not transitioned to IDIQ contracts.

                 The advantage of IDIQ contracts is that they allow for the possibility of awarding
                 fixed-price task orders. We found that only Region 4 is significantly issuing
                 fixed-price task orders. We reviewed 25 Region 4 task orders and found that 18
                 were firm-fixed-price type task orders. These task orders were for remedial
                 actions, including some long-term remedial actions. We reviewed 30 additional
                 task orders from Regions 1 and 9 (which also have IDIQ contracts) and found that
                 29 were high risk T&M task orders. We confirmed through interviews with both
                 EPA headquarters and regional program and contracts staff that EPA does not
                 award a significant amount of lower risk, task orders for remedial action activities

1
 OMB defines high risk contracting activities as noncompetitive contracting, cost-reimbursement contracts, T&M
contracts, and labor hour contracts.


13-P-0208                                                                                                        9
            outside of Region 4. Therefore, while some regions have converted their RAC
            contracts to IDIQ, most continue to rely on high risk task order types.

            Region 7 has awarded 38 site specific contracts since 2005, the majority of which
            were for remedial actions. We reviewed all 38 and determined that 37 were fixed-
            price type contracts. Region 7 contracts with the construction contractor directly,
            using regional contracting staff to award and administer the contracts, and
            remedial project managers to oversee the construction contractor.

            EPA Strategies to Reduce High Risk Contracting Not Successful

            EPA’s Contracts 2000 Strategy encouraged shifting away from large umbrella
            contracts (such as the full service RACs that perform all pipeline activities from
            site assessment to cleanup) to functionally focused contracts for design and
            construction services. This shift was done in part to increase opportunities for the
            use of fixed-priced, performance-based contracting and to reduce the over­
            reliance on cost-reimbursement contracts. However, the plan allowed for
            flexibility when awarding contracts. This flexibility allowed regions to continue
            to use and rely heavily on high risk CPFF contracts and high risk task orders
            pursuant to their IDIQ contracts.

            In 2011, EPA published its Contracts 2010 Strategy Report, which sets the
            framework for acquisitions in support of the Superfund program activities for the
            next 10 years. One of the goals of the Contracts 2010 Strategy is to mitigate high
            risk contracting practices. In order to achieve the lowest level of high risk
            contracts possible, EPA identified several tasks to reduce the number of these
            high risk contracts. However, this plan lacks specifics and once again allows for
            regional flexibility. Without increased specificity and goals, this strategy may also
            be ineffective in reducing high risk contracts and task orders.

EPA Culture Encourages Status Quo

            EPA Regional Program Staff Resistant to Change

            Most EPA regional program offices have resisted the use of fixed-price
            contracting in the remedial program for more than a decade. EPA regional
            program offices prefer the full service RAC cost-reimbursement contracts or IDIQ
            contracts utilizing T&M task orders because they provide flexibility in structuring
            projects at various stages of the remedial program. The full service RAC contracts
            allow EPA to leverage its resources, as EPA project managers are used to oversee
            multiple sites and act as the focal point of communications and coordinate project
            team efforts, ensuring that project participants work together to accomplish the
            goals of the project.

            The regions’ resistance to change is well documented through the years and was
            continually communicated to the OIG during this audit. One of the earliest


13-P-0208                                                                                           10
            examples of resistance from the regions came when EPA tried to implement the
            Contracts 2000 Strategy. The original Contracts 2000 Strategy called for dividing
            the design and construction portions of the RAC contracts so that the construction
            portion could possibly be fixed-price. However, the regions did not like this
            mandate because of the Agency’s limited experience and in-house resources to
            directly contract and manage construction projects. Therefore, Contracts 2000
            was ultimately implemented using a menu approach emphasizing regional
            flexibility and only encouraged the use of fixed-price contracts. The menu
            approach allowed regions to choose from several options when developing their
            contracts. Those options included use of site specific contracts, RACs, remedial
            design contracts, and interagency agreements. The menu approach has allowed
            the status quo to continue for more than a decade. When discussing why fixed-
            price contracting is not being implemented with OAM headquarters, regional
            contracting staff, and OSRTI headquarters, the overall response was because of
            regional program office resistance.

            More recently, OAM and OSWER developed the Contracts 2010 Strategy. This
            strategy once again emphasized regional flexibility. Superfund program and
            contracting representatives are working on Phase 2 of the Contracts 2010
            Strategy. While this plan is not complete, the OIG obtained a draft of the plan and
            it is also not specific with regard to contract types and allows for continuing
            flexibility for the regions. When we discussed with OAM and OSRTI staff the
            lack of specificity regarding contract type, regional program resistance was cited
            as the reason why more progress is not being made in reducing high risk
            contracting.

            EPA Staff Believe that Remedial Actions Do Not Lend Themselves to
            Fixed-Price Type Contracts

            One of the reasons EPA regional staff cited for not using fixed-price contracts is
            that there are too many unknown and unforeseen factors associated with
            subterranean construction. Both program and contracting staff in EPA regions
            informed us that in order to award fixed-price type contracts, the work to be
            performed must not be complex, or there must be few unknowns so that the
            activities can be well-defined. While the OIG agrees that fixed-price contracts
            lend themselves to a well-defined scope of work and not all tasks can be fixed-
            price, we do not agree that remedial actions do not lend themselves to fixed-
            pricing. Both Region 4 and Region 7 regularly award fixed-price type contracts or
            task orders for remedial actions and have done so for several years. When
            identifying the types of activities funded with fixed-price type contracts in
            Regions 4 and 7, we found similar types of activities in other regions that do not
            use fixed-price contracting.

            In addition, EPA’s RAC contractors award fixed-price type subcontracts to
            accomplish the remedial actions. These RAC contractors are generally architect
            and engineering firms and usually do not perform the remedial action themselves.



13-P-0208                                                                                         11
                   Instead, these firms subcontract out the performance of the selected remedy. We
                   reviewed several of these subcontracts or proposed subcontract agreements
                   between architectural and engineering firms and their subcontractors, and all of
                   the subcontracts reviewed were fixed-price type subcontracts. The types of fixed-
                   price type subcontracts awarded were for various services, including the
                   following:

                          Dredging and related services. 

                          Drilling services.

                          In-situ chemical oxidation. 

                          In-situ thermal treatment. 

                          Removal of access roads, and enhancements to stream banks, roads, and 

                           fencing.
                          Removal of contaminated tailings and soil.

                   Program Office Pressure

                   The CO has ultimate responsibility for determining contract type. COs are
                   responsible for safeguarding the interests of the United States in its contractual
                   relationships. In order to perform this responsibility, COs should be allowed wide
                   latitude to exercise business judgment. At the same time, the program offices are
                   the CO’s customer, resulting in a situation that can create a conflict for the CO
                   between satisfying the customer and determining the appropriate contract type
                   based on the statement of work and other related data. Contracting staff stated that
                   the program offices wield significant influence on the selection of the contract
                   type. One CO stated that he was surprised at how much influence the program
                   office has on contract type at EPA, while another CO stated that the program
                   office essentially dictates the contract type. In other cases, the discussion of the
                   task order type is not even taking place between the program office and the CO.
                   It is assumed that the task order type will be T&M and a discussion of whether
                   certain tasks can be fixed does not take place.

                   Lack of Leadership and Lack of Performance Measures

                   Overcoming the barriers that have prevented EPA from moving away from high
                   risk contracting requires strong leadership. In the past, however, OAM and
                   OSRTI have not always displayed strong leadership. For example, the original
                   Contracts 2000 Strategy called for dividing the design and construction portions
                   of the RAC contracts to provide more opportunity for fixed-price contracting.
                   EPA regions essentially rejected this approach, and management allowed the plan
                   to be changed to a more flexible menu approach which allowed regions flexibility
                   and choices. In fact, regions were allowed to keep the same contracting practices
                   and continue to operate as in the past. Again in April 2004, another EPA
                   Superfund study2 highlighted discussions about whether the existing contracts are

2
    EPA, SUPERFUND: Building on the Past, Looking to the Future, April 22, 2004


13-P-0208                                                                                                 12
            used effectively and whether different contract types should be used more
            frequently (e.g., performance-based and site specific contracts). This same study
            stated that site specific and task order contracts can result in significant cost
            savings to the program. However, EPA has awarded almost no site specific
            contracts outside of Region 7, nor fixed-price task orders outside of Region 4.
            With the Contracts 2010 Strategy, the leadership strategy of allowing regional
            flexibility continues to be advocated resulting in continued use of high risk
            contracting strategies. OAM management informed us that they have a number of
            initiatives that they believe will address the issue. Some of these initiatives
            include:

                  Institutionalizing a more disciplined acquisition planning process.
                  Implementing management controls and oversight mechanisms to ensure
                   the performance of the required analysis and documentation for the
                   selection of appropriate contract types.

            However, it is too early to evaluate the impact of any of these initiatives.

            Neither the Contracts 2000 nor Contracts 2010 Strategies included performance
            goals or measures for assessing progress toward using fixed-price contracting.
            The Government Performance and Results Act of 1993 emphasized the use of
            goals for program performance and measuring results. The Government
            Performance and Results Modernization Act of 2010 reemphasized the use of
            goals and measures to improve outcomes. Performance goals can help programs
            achieve results. Performance measures may assist the Agency in moving toward
            fixed-price contracting. In fact, the EPA Director of Small Business Programs
            stated that performance measures have helped EPA become one of the top
            agencies in meeting small business goals.

            EPA Officials and Staff Cite Lack of Personnel as Barrier to Fixed-
            Price Contracting

            EPA officials and staff stated that they do not have personnel with the right skill
            mix or experience to award, administer, and manage fixed-priced contracts. While
            this may be the case, the Agency has had more than a decade since its Contracts
            2000 Strategy to train and hire the staff needed to implement fixed-price
            contracting in the remedial program, and with the exception of Region 7, has
            chosen not to do so.

            In 2005, OSWER initiated the Superfund Workload Assessment. The primary
            purposes of the Superfund Workload Assessment were to:

                  Better understand how Superfund personnel resources are being used
                   across the program relative to the future long-term workload.
                  Establish a baseline of current workload distribution and resource
                   constraints.


13-P-0208                                                                                         13
               	 Explore opportunities to continue to improve the program’s use of its
                  personnel resources.

            OMB Guidance Memorandum M-09-26, Managing the Multi-Sector Workforce,
            instructs agencies to determine the mix of skills and amount of labor needed for
            the agency to perform efficiently and effectively. According to the guidance,
            agencies should take into account the mission, functions, desired performance
            standards, and workload. While the Superfund Workload Assessment did examine
            the workforce on board at the time of the assessment, it did not identify the mix of
            skills needed for the agency to implement the Contracts 2000 Strategy.

            EPA staff contended that a fixed-priced contract is more labor intensive than a
            cost-reimbursement contract and requires adequate, experienced personnel to
            award, administer, and manage a fixed-priced contract. While fixed-pricing work
            does require more upfront planning such as developing a well defined scope of
            work, this makes the stages after award easier to administer and manage.
            Moreover, cost-reimbursement contracts require increased government
            surveillance. FAR 16.301-3 states that a cost-reimbursement contract can only be
            used when adequate government resources are available to award and manage a
            contract other than firm-fixed-priced. This includes appropriate government
            surveillance during performance to provide reasonable assurance that efficient
            methods and effective cost controls are used. This point was reiterated in OMB’s
            memorandum in response to the President’s directive concerning high risk
            contracting, which stated that cost-reimbursement and T&M contracts are often
            used without an appropriate basis or sufficient management and oversight to limit
            taxpayer risk.

EPA Missing Out on the Benefits of Fixed-Price Contracting
            The reliance on high risk contracts and task orders provides little incentive to the
            contractor to control costs. As a result, EPA is not reaping the benefits of cost
            savings related to fixed-price contracting. Fixed-price contract savings can
            sometimes be difficult to calculate, since projects are often unique. We found one
            instance in Region 7 where EPA was cleaning up residential yards in the same
            county using two different contractors. One contract was a T&M contract, and the
            other contract was awarded by paying the contractor a fixed price per ton of
            remediated land. Tasks performed for each contract were similar. We used a
            conversion rate to convert tons to cubic yards and found the cost per cubic yard
            for the T&M contract was $80.16, while the cost per cubic yard for fixed price
            type contract was $32.74. EPA awarded the first contract using a high risk T&M
            contract. It later awarded the second contract using a fixed price per ton because
            of several concerns, one of which was the cost being incurred to clean up the
            yards using the T&M contract. By moving to the fixed-price type contract,
            Region 7 saved $13,828,003 for the 261,607 cubic yards removed by the fixed-
            price contractor.




13-P-0208                                                                                          14
            Region 7’s use of fixed-price type contracts has also resulted in increased
            socioeconomic participation. Region 7 has continually had the highest percentage
            of contracts awarded as “small business” from 2006 through 2011. In fact,
            Region 7 has led in almost each category for small business concerns during that
            time period. The EPA Director of the Office of Small Business Programs
            informed us that Region 7 is the premier regional office in terms of meeting
            EPA’s small business goals.

            Another benefit of Region 7’s use of site specific contracting is competition. We
            reviewed 38 Region 7 site specific contracts. Of those, 30 were awarded
            competitively. The average number of bids for the 30 competitive contracts was
            8.4, and the number of bids ranged between 3 and 17. For 4 of the 30 competitive
            contracts, the range of bids was over $24 million. Other regions are not able to
            take advantage of the benefits of competition since they do not competitively
            award task orders or work assignments under RAC contracts.

Recommendations
            We recommend that the Assistant Administrator for the Office of Administration
            and Resources Management:

               1a. Require that written acquisition plans for future cost-reimbursement RAC
                   contracts be approved by the Head of the Contracting Activity.

               1b. For current cost reimbursement RAC contracts, at the end of the base
                   period, require written acquisition plans be prepared and approved by the
                   Head of the Contracting Activity.

            We recommend the Assistant Administrators for both the Office of
            Administration and Resources Management and the Office of Solid Waste and
            Emergency Response:

               2. 	 Develop performance measures for each region for the use of fixed-price
                    contracts and task orders for remedial actions. The performance measures
                    should be implemented in a way that holds the regions accountable (both
                    the Superfund program staff and contracting staff) for decreasing the use
                    of high risk contracts and task orders.

               3.	 As part of the implementation of the Contracts 2010 Strategy, provide
                   training to both Superfund program and contracting staff on how and
                   when less risky contracts and task orders should be used in the Superfund
                   remedial program.

               4.	 Determine whether staffing changes are needed in each region to ensure
                   that staff have the skills to manage the increased use of fixed-price




13-P-0208                                                                                       15
                   contracts and task orders, and develop a plan for addressing the staffing
                   needs.

Agency Response and OIG Evaluation
            EPA agreed in principle to the objectives of the report – to improve acquisition
            planning and increase the use of fixed price contracts where appropriate.
            However, the Assistant Administrators did not agree with some of the
            recommendations, and provided specific comments to passages in the report.
            Our responses to the specific comments can be found in Appendix B.

            A recurring comment in the response to the draft report is that the draft did not
            provide a balanced view of fixed-price contracting and that it might not always be
            appropriate for Superfund work. We agree that OMB guidance states that when
            there is considerable uncertainty regarding what is needed a cost reimbursable
            contract may be more effective. The OMB memorandum goes on to state that,
            over time, experience should generally enable the agency to address the
            uncertainties, making it possible to convert to fixed-price contracting. While
            subsurface and underwater activities are difficult to characterize, there are other
            types of remediation activities that the EPA has past experience with and
            converting to fixed-price contracting should be considered.

            In the draft report, the first recommendation was that the EPA replace all current
            cost-reimbursement RAC contracts at the end of the current base or option period
            with IDIQ contracts to allow the use of fixed-price task orders when appropriate.
            EPA did not agree with recommendation 1, and stated that OAM recently
            published Interim Policy Notice 12-03 on Acquisition Planning. EPA stated that
            the processes, procedures, and oversight associated with the interim policy notice
            are intended to institutionalize more informed and collaborative decision making
            throughout the acquisition planning process, which includes contract type. The
            Agency also stated that due to the requirements of the recently established
            Remedial Acquisition Framework, EPA plans to review all of the Agency’s
            contracts in support of the Superfund Remedial Program in order to determine the
            appropriate time to re-compete under the new proposed remedial model described
            in the framework.

            Based on available information, the Agency’s proposed action will not address the
            recommendation. We reviewed the interim policy notice for acquisition planning
            and it requires that FAR Part 7 requirements must be met for all EPA acquisitions.
            It does require the contract team to document the rationale for the contract type
            proposed. However, this would not be applied to the RAC contracts until the
            current contracts expire. As for the remedial action framework, the EPA was
            unable to provide a copy to review. Until we are able to review the framework
            and determine that it adequately addresses replacing the RAC contracts that only
            allow for cost reimbursement task orders, we cannot accept the alternate
            correction action.


13-P-0208                                                                                         16
            Based on the EPA’s response to the draft report, we revised recommendation 1.
            We recognize that the revised acquisition policy does require that the rationale for
            the contract type be documented. Due to the size of the RAC contracts and the
            issues in the audit report regarding program office pressure and resistance to
            change, we are recommending that the written acquisition plan be approved by
            the Head of the Contracting Activity, as opposed to the Chief of the Contracting
            Office. For the current cost-reimbursable RAC contracts we are recommending
            that the agency re-evaluate whether cost-reimbursable is the appropriate form of
            contract at the end of the base contract periods. RAC contracts generally have
            5 option years, making the expiration date of some of the current cost-
            reimbursable contracts as 2018 and 2019. We believe that action should be taken
            sooner than that. The audit resolution process will be used to resolve this
            recommendation.

            For recommendation 2, the Agency did not agree with establishing performance
            measures. The Agency stated that it would develop guidelines for use when
            selecting the most appropriate type of contract and task order, considering the
            results of the Remedial Acquisition Framework and the Centers of Expertise
            Study. The proposed guidelines are not available for the OIG to evaluate, in
            particular whether it includes a method for evaluating the effectiveness of the
            guidelines in increasing the use of fixed-price contracting vehicles. The audit
            resolution process will be used to resolve this recommendation.

            EPA agreed with recommendation 3 and committed to providing training to both
            Superfund program and contracting staff. The training will include how to
            document the analysis leading up to the contract type selection. The targeted
            completion date is November 30, 2013. The Agency actions, when implemented,
            should address the recommendation.

            For recommendation 4, the Agency agreed to continue to ensure that staff have
            the skills necessary to manage all types of contracts. The ongoing Centers of
            Expertise study is assessing the staffing needs associated with implementing new
            business processes, such as prescriptive acquisition planning requirements. In
            responding to the draft report, the Agency acknowledged that it will require
            additional resources and infrastructure to perform direct construction activities.
            While the Agency agreed that it should maximize the use of fixed-price
            contracting as appropriate, it has not addressed how it will develop the
            infrastructure needed to support fixed-price contracting. Therefore, we consider
            this recommendation unresolved and will initiate the audit resolution process.




13-P-0208                                                                                          17
                                   Chapter 3

                        Inaccurate Contract Data
            The EPA Acquisition System (EAS) contains inaccurate contract and task order
            information. Specifically, 5 of 17 contracts and 22 of 60 task orders and work
            assignments had an incorrect contract or award type listed in EAS. EPA’s Open
            Government Data Quality Plan 1.0 states that each of the 13 major EPA
            contracting offices is responsible for overseeing the quality of its acquisition
            operations through its Quality Assessment Plan (QAP). Additionally, EPA’s
            Acquisition Handbook states that by using the QAPs, EPA verifies and validates
            that the information in EPA’s procurement system is consistent with the official
            contract files. The inaccurate data in EAS is due to the lack of a specific EAS data
            quality plan and a decentralized QAP process. EAS data is made available to the
            public through the Federal Procurement Data System. As a result, EPA is
            misreporting contract and spending information to the public.

OMB’s Open Government Directive Requires Data Quality
            In February 2010, OMB issued an Open Government Directive regarding the
            quality of federal spending information. The directive cited duplication of data,
            missing transactions and data elements, and inaccurate or untimely data as the
            challenge with regards to the accuracy of federal spending data. The directive also
            stated that agencies should ensure that information on federal spending is
            objective and of high quality. OMB directed agencies to submit data quality plans
            by April 14, 2010. Additionally, OMB required the Senior Accountable Official
            of each agency to certify its plan.

            To comply with OMB’s directive, EPA issued its Open Government Data Quality
            Plan 1.0 on May 18, 2010. This plan states that each of the 13 major EPA
            contracting offices is responsible for overseeing the quality of its acquisition
            operations through its QAP. Each QAP should contain internal control and
            integrity requirements to ensure that acquisition rules and regulations are
            followed, files and records are kept to document the acquisition processes and
            procedures, and sufficient efforts are taken to perform pre- and post-award
            reviews of transactions to ensure that controls are working as intended. Each QAP
            also directly places the responsibility for data quality and integrity on the contract
            specialists and contracting officers.

            In order to maintain visibility of all Agency QAPs, OAM requires a current
            repository of the plans for all primary contracting organizations. Based on this
            requirement, all current QAPs shall be submitted to OAM for review and
            concurrence. Thereafter, all primary contracting organizations must submit their
            QAP to OAM for review when the plans have been modified.



13-P-0208                                                                                            18
            EPA’s Acquisition Handbook states that by using the QAPs, EPA verifies and
            validates that the information in EPA’s procurement system is consistent with the
            official contract files. It further states that a summary of the validation is required
            to be documented for the record.

Incorrect Contract and Task Order Types Listed in EAS
            Five of 17 (29 percent) contracts reviewed had incorrect contract types listed in
            EAS when compared to the individual contract file. Additionally, 22 of 60
            (37 percent) task orders and work assignments reviewed had award types listed in
            EAS that did not match the individual task order or work assignment file.

            In response to finding outlines provided to EPA, OAM stated that the “Contract
            Type Per File” and “EAS Contract Type” do not represent coding inconsistencies,
            as both data entries are correct. OAM asserts that contracts may be both IDIQ and
            T&M. IDIQ refers to the contract type and T&M refers to the pricing arrangement
            for the task order. OAM believes both contract types may accurately describe one
            contract in terms of type and pricing, and OAM sees no error in this reporting.
            Nonetheless, OAM believes that consistency in how such data is reported is
            important for effective contract management and will consider developing policy
            guidance to facilitate consistency in how such data is reported. We disagree with
            OAM regarding the use of the pricing arrangement for the contract type. The
            contract type refers to the overall contract and the pricing arrangement applies to
            the task orders issued under that contract. Pricing arrangement under an IDIQ
            contract may allow for many different task order types. For example, the pricing
            arrangement for one region’s contracts allows for three different types of task
            orders to be issued. Therefore, these contracts should be reported as IDIQ
            contracts.

            Our analysis resulted in a lower accuracy rate than what EPA certified to OMB.
            EPA’s certification to OMB for fiscal year 2011 had an 88.3 percent accuracy rate
            for the correct contract type and a 99.5 percent accuracy rate for the correct award
            type when comparing EAS to the individual contract or task order file. EPA’s data
            is based on a contractor’s review, and we did not review the contractor’s scope
            and methodology.

            The analysis for both the 17 contracts and 60 task orders and work assignments
            are detailed in appendix A.

Lack of a Specific Data Quality Plan for EAS and a Decentralized
QAP Process Led to Data Integrity Issues
            EPA does not have a specific data quality plan for EAS. Instead, EPA relies on its
            overall data quality plan, EPA’s Open Data Quality Plan 1.0, for acquisitions. The
            plan states that data integrity is the responsibility of the contract specialist and CO
            and that specific data integrity requirements are contained in each of EPA’s major


13-P-0208                                                                                             19
            contracting offices’ QAPs. Because of the absence of a specific data plan for EAS
            and the decentralized reliance on QAPs, EPA does not have a consistent
            methodology for reviewing and maintaining contract data integrity in EAS.

            We reviewed six QAPs and found that all had the basic requirements of a QAP as
            defined in EPA’s Acquisition Handbook. However, in some cases the QAPs
            lacked detailed instructions on how to accomplish the data validation. We also
            found that Region 1 is operating on an unapproved QAP, further highlighting the
            inconsistent methods for validating the integrity of contract data through the QAP
            process. In response to why there were errors concerning contract type and award
            type in EAS, contracting officers from Regions 1, 4, and 9 stated they were due to
            input errors.

EPA Is Misreporting Vital Contract and Spending Information
            Federal spending information is designed to inform the public on how and where
            tax dollars are being spent to provide transparency to the federal government’s
            operations. EAS data is made available to the public through the Federal
            Procurement Data System. As a result, EPA is certifying inaccurate contract data
            in required annual submissions to the OMB.

Recommendations
            We recommend that the Assistant Administrator for the Office of Administration
            and Resources Management:

               5.	 Develop and implement a data quality plan for EAS to ensure the
                   adequacy of data across all regions. The plan should include detailed
                   instructions for ensuring contract types and task order pricing
                   arrangements are input in EAS correctly and that procedures are
                   established to verify the accuracy of the information.

               6.	 Ensure that Region 1 has an approved QAP and members of Region 1’s
                   contracting staff are aware of the QAP’s contents and requirements.

Agency Response and OIG Evaluation
            In response to recommendation 5, the EPA agreed that data quality is important and
            would evaluate the source of discrepancies and implement appropriate corrective
            action. After the exit conference, OAM revised its response to the recommendation
            to include additional activities that it is conducting. In 2011 and 2012, OAM
            provided training to contracting staff targeted at correcting past errors. In FY 2013,
            OAM will continue training and is planning on conducting quarterly data quality
            reviews. Through its self-assessment and peer review programs, OAM will also
            conduct file reviews, which include data reporting. As the Regional Acquisition
            Framework progresses, OAM will identify opportunities to ensure consistency in
            EPA’s reporting on associated contracting vehicles, and will implement the policy


13-P-0208                                                                                        20
            or training necessary to improve agency-wide acquisition report. The response did
            not address development of a data quality plan or provide an explanation as to why
            it was not needed. The response relies upon QAPs that the audit found lacked
            detailed instructions on how to accomplish the data validation. The Remedial
            Action Framework is not completed and available for us to assess the adequacy of
            the actions EPA plans to take. The additional information did not provide an
            adequate response to the recommendation and the audit resolution process will be
            used to resolve the recommendation.

            In response to recommendation 6, the Agency stated that the Region 1 QAP has
            been approved and staff are aware of the QAP’s contents and requirements. The
            Agency’s action addressed the recommendation. Therefore, we consider the
            corrective action completed.




13-P-0208                                                                                    21
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                          Subject                            Status1        Action Official             Date      Amount      Amount

    1a       15     Require that written acquisition plans for future          U       Assistant Administrator for
                    cost-reimbursement RAC contracts be approved by                       Administration and
                    the Head of the Contracting Activity.                               Resources Management

    1b       15     For current cost-reimbursement RAC contracts, at           U       Assistant Administrator for
                    the end of the base period, require written                           Administration and
                    acquisition plans be prepared and approved by the                   Resources Management
                    Head of the Contracting Activity.

     2       15     Develop performance measures for each region for           U       Assistant Administrator for
                    the use of fixed-price contracts and task orders for                   Administration and
                    remedial actions. The performance measures                          Resources Management,
                    should be implemented in a way that holds the                      and Assistant Administrator
                    regions accountable (both the Superfund program                       for Solid Waste and
                    staff and contracting staff) for decreasing the use of               Emergency Response
                    high risk contracts and task orders.

     3       15     As part of the implementation of the Contracts             O       Assistant Administrator for    11/30/13
                    2010 Strategy, provide training to both Superfund                      Administration and
                    program and contracting staff on how and when                       Resources Management,
                    less risky contracts and task orders should be used                and Assistant Administrator
                    in the Superfund remedial program.                                    for Solid Waste and
                                                                                         Emergency Response

     4       15     Determine whether staffing changes are needed in           U       Assistant Administrator for
                    each region to ensure that staff have the skills to                    Administration and
                    manage the increased use of fixed-price contracts                   Resources Management,
                    and task orders, and develop a plan for addressing                 and Assistant Administrator
                    the staffing needs.                                                   for Solid Waste and
                                                                                         Emergency Response

     5       20     Develop and implement a data quality plan for EAS          U       Assistant Administrator for
                    to ensure the adequacy of data across all regions.                    Administration and
                    The plan should include detailed instructions for                   Resources Management
                    ensuring contract types and task order pricing
                    arrangements are input in EAS correctly and that
                    procedures are established to verify the accuracy
                    of the information.

     6       20     Ensure that Region 1 has an approved QAP and               C       Assistant Administrator for    03/04/13
                    members of Region 1’s contracting staff are aware                     Administration and
                    of the QAP’s contents and requirements.                             Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0208                                                                                                                                                22
                                                                                                         Appendix A

                     Sampled Contracts, Task Orders, and 

                     Work Assignments for Data Integrity 

RAC Contracts and Region 7 Site Specific Contracts
                                                                                                           Contract
                                                             Contract type as listed      Contract           Type
    Region         Contract         EAS contract type        in the contract             Type same         different
    Region 1       EP-S1-06-03      T&M                      IDIQ                                              X
    Region 1       EP-S1-06-01      T&M                      IDIQ                                              X
    Region 4       EP-S4-09-02      T&M                      IDIQ                                              X
    Region 4       EP-S4-08-03      T&M                      IDIQ                                              X
    Region 7       EP-S7-09-02      Fixed-Price              Fixed-Price                     X
    Region 7       EP-R7-08-14      Fixed-Price              Fixed-Price                     X
    Region 7       EP-S7-11-07      IDIQ                     IDIQ                            X
    Region 7       EP-S7-11-01      Fixed-Price              Fixed-Price                     X
    Region 7       EP-R7-08-12      IDIQ                     IDIQ                            X
    Region 7       EP-S7-07-10      Fixed-Price              Fixed-Price                     X
    Region 7       EP-S7-11-04      IDIQ                     IDIQ                            X
    Region 7       EP-S7-10-03      Fixed-Price              Fixed-Price                     X
    Region 8       EP-W-05-049      CPFF                     CPFF                            X
    Region 8       EP-W-06-006      CPFF                     CPFF                            X
    Region 9       EP-R9-09-01      T&M                      IDIQ                                              X
    Region 9       EP-S9-08-03      IDIQ                     IDIQ                            X
    Region 9       EP-S9-08-04      IDIQ                     IDIQ                            X

RAC Contract Task Orders and Work Assignments
                                                                                                            EAS and EPA
                                                                                                             file different
                                                EAS Contract         Pricing per TO/WA     EAS and EPA        for T0/WA
    Region     Contract         TO/WA           /TO/WA Pricing       in EPA files          file the same          type
    Region 1   EP-S1-06-03           1          T&M                  T&M                          X
    Region 1   EP-S1-06-03           5          T&M                  T&M                          X
    Region 1   EP-S1-06-03          12          T&M                  T&M                          X
                                                         3
    Region 1   EP-S1-06-03          17          multiple             T&M                                           X
    Region 1   EP-S1-06-03          22          multiple             T&M                                           X
    Region 1   EP-S1-06-03          37          T&M                  T&M                         X
    Region 1   EP-S1-06-03          38          multiple             T&M                                           X
    Region 1   EP-S1-06-03          45          T&M                  T&M                         X
    Region 1   EP-S1-06-01           3          T&M                  T&M                         X
    Region 1   EP-S1-06-01           8          multiple             T&M                                           X
    Region 1   EP-S1-06-01          28          multiple             T&M                                           X
    Region 1   EP-S1-06-01          31          multiple             T&M                                           X
    Region 1   EP-S1-06-01                 41   multiple             T&M                                           X

3
    Task order contains multiple line items with differing award types (i.e. cost-type, T&M, FP, etc.)


13-P-0208                                                                                                                     23
                                                                                                EAS and EPA
                                                                                                 file different
                                           EAS Contract     Pricing per TO/WA   EAS and EPA       for T0/WA
 Region      Contract        TO/WA         /TO/WA Pricing   in EPA files        file the same         type
 Region 1    EP-S1-06-01              42   T&M              T&M                        X
 Region 1    EP-S1-06-01              52   multiple         T&M                                       X
 Region 1    EP-S1-06-01              53   T&M              T&M                      X
 Region 4    EP-S4-09-02               1   multiple         FFP                                       X
 Region 4    EP-S4-09-02               2   T&M              T&M                      X
 Region 4    EP-S4-09-02               9   Multiple         FFP                                       X
 Region 4    EP-S4-09-02              10   Fixed-Price      FPP                      X
 Region 4    EP-S4-09-02              11   Fixed-Price      FFP                      X
 Region 4    EP-S4-09-02              12   Fixed-Price      T&M                                       X
 Region 4    EP-S4-09-02              14   T&M              FFP                                       X
 Region 4    EP-S4-09-02              15   T&M              T&M                      X
 Region 4    EP-S4-09-02              16   T&M              FFP                                       X
 Region 4    EP-S4-09-02              20   T&M              FFP                                       X
 Region 4    EP-S4-09-02              24   T&M              FFP                                       X
 Region 4    EP-S4-09-02              27   T&M              FFP                                       X
 Region 4    EP-S4-09-02              28   T&M              FFP                                       X
 Region 4    EP-S4-09-02              33   cost             FFP                                       X
 Region 4    EP-S4-09-02              42   T&M              FFP                                       X
 Region 4    EP-S4-09-02              46   Fixed-Price      FFP                      X
 Region 4    EP-S4-09-02              51   Fixed-Price      FFP                      X
 Region 4    EP-S4-09-02              56   Fixed-Price      FFP                      X
 Region 4    EP-S4-09-02              59   Fixed-Price      FFP                      X
 Region 4    EP-S4-09-02              61   T&M              FFP                                       X
 Region 4    EP-S4-09-02              62   T&M              FFP                                       X
 Region 4    EP-S4-08-03               6   T&M              T&M                      X
 Region 4    EP-S4-08-03               8   T&M              T&M                      X
 Region 4    EP-S4-08-03              11   T&M              T&M                      X
 Region 4    EP-S4-08-03              15   Fixed-Price      T&M                                       X
 Region 8    EP-W-05-049             209   CPFF             CPFF (LOE)               X
 Region 8    EP-W-05-049             212   CPFF             CPFF (LOE)               X
 Region 8    EP-W-06-006             107   CPFF             CPFF (LOE)               X
 Region 8    EP-W-06-006             108   CPFF             CPFF (LOE)               X
 Region 8    EP-W-06-006             115   CPFF             CPFF (LOE)               X
 Region 9    EP-R9-09-01               1   T&M              T&M                      X
 Region 9    EP-R9-09-01               2   T&M              T&M                      X
 Region 9    EP-S9-08-03               8   T&M              T&M                      X
 Region 9    EP-S9-08-03              17   T&M              T&M                      X
 Region 9    EP-S9-08-03              36   T&M              T&M                      X
 Region 9    EP-S9-08-03              41   T&M              T&M                      X
 Region 9    EP-S9-08-03              50   T&M              T&M                      X
 Region 9    EP-S9-08-04               7   T&M              T&M                      X
 Region 9    EP-S9-08-04              43   T&M              T&M                      X
 Region 9    EP-S9-08-04              45   T&M              T&M                      X
 Region 9    EP-S9-08-04              48   T&M              T&M                      X
 Region 9    EP-S9-08-04              50   T&M              T&M                      X
 Region 9    EP-S9-08-04              53   T&M              T&M                      X
 Region 9    EP-S9-08-04              65   Fixed-Price      Fixed-Price              X
Source: OIG analysis of contract files and EAS data.



13-P-0208                                                                                                         24
                                                                                  Appendix B

Agency Response to Draft Report and OIG Evaluation


                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460




                                                       MAR   4 2013

 MEMORANDUM


 SUBJECT:	    Response to Office of lnspector General Draft Report No. OA-FY11-0594
              EPA Must Increase Fixed-Price Contracting in the Remedial
              Program, Dated January 8, 2013

 FROM: 	       Craig E. Hooks
               Assistant Administrator for Administration and Resources Management

               Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response

TO:            Melissa Heist
               Assistant Inspector General for Audit

Thank you for the opportunity to respond to the issues and recommendations in the subject
draft audit report. Following is a summary of the agency's overall position, along with its
position on each of the report's recommendations. For those report recommendations with
which the agency agrees, we have provided either high-level intended corrective actions and
estimated completion dates to the extent we can or reasons why we are unable to provide high-
level intended corrective actions and estimated completion dates at this time. For those report
recommendations with which the agency does not agree, we have explained our position and
proposed alternatives to recommendations.
 Overall Comments
The Assistant Administrators for OSWER and OARM agree in principle to the objectives of
this report, which are to improve acquisition planning and oversight and to maximize the use
of firm fixed price contracts when appropriate. However, we are not in agreement with some


13-P-0208                                                                                         25
 of the recommendations offered in the OIG's draft Report. OSWER and OARM support the
 Administration's call to reduce vulnerabilities related to "high risk" contracts by using more
 fixed rate and fixed price contracts. We are committed to mitigating high risk contracts
 through improved acquisition planning, management and oversight of the contracts, and we
 are committed to identifying opportunities to fix price new contracts. Evaluating and
 proposing the most efficient and appropriate contracting vehicle is a component of the
 Superfund Remedial program's current effort to implement the Contracts 2010 Strategy effort.
 The Superfund remedial program is preparing its next generation contracting strategy
 implementing Contracts 2010, called the Remedial Acquisition Framework. It is currently
 being developed by a workgroup of program and acquisition representatives as a guide to
 remedial acquisitions in a reduced budget climate. As part of this effort, EPA is examining its
 program operations and future workload to identify areas that may yield efficiencies and cost
 savings. EPA is evaluating the use of fixed price contracts for certain types of work, such as
 ongoing monitoring of five year reviews. The goals of the Remedial Acquisition Framework
 will be balanced with the best approach to achieve the Superfund remedial cleanup mission in
 the most efficient and effective manner. The OIG findings in this report, and the subsequent
 recommendations, seemed to have ignored the Superfund Program's use of fixed price
 subcontracts in the remedial construction program. Although Remedial Action Contracts
 (RACs) may be cost reimbursement at the contract level, the RAC contractor awards
 subcontracts for construction as fixed price. Additionally, on statements regarding fixed price
 construction, the cost of federal construction oversight must be factored into any calculations
 of acquisition effort.

OIG Response 1: As we discuss on page 12 of the report, EPA’s RAC contractors award fixed-
price type subcontracts to accomplish the remedial actions. The use of fixed-price type
subcontracts is one of the reasons we believe that more opportunities exist for EPA to use
fixed-price contracts and task orders.

 Specific Comments
 Our staff conducted an extensive review of the report and has significant concerns about the
 lack of data supporting the report's assertions and conclusions. The report's title and "At a
 Glance" section focus on fixed price contracting in the remedial program; however, it only
 provides anecdotal generalizations regarding one segment of the remedial program, remedial
 action construction. It ignores significant parts of the remedial program that are components
 of the contracts examined, namely: Site Assessment/Characterization, Remedial
 Investigation and Feasibility Studies, Risk Assessment, Remedy Selection, Remedial Design,
 and Post Construction. In addition, the report only addresses a small portion, not necessarily a
 representative sample, of the remedial program's universe of existing acquisition vehicles,
 excluding work performed by the US Army Corps of Engineers and States.

OIG Response 2: Our audit focused on remedial construction activities funded through RAC
and site specific contracts, but also looked at other activities that were purchased under the RAC
contracts. Our conclusion was that remedial construction had the greatest opportunities for use of
fixed-price type contracts. Unless specifically stated in the report, the term remedial action refers
to the remedial construction activities.


13-P-0208                                                                                               26
 As a result, OSWER and OARM believe that the draft report fails to provide a balanced
 portrayal of fixed rate contracting. The report states that fixed price contracts must be used
 without explaining the benefits, downsides or conditions under which they should be used.
 Furthermore, the report appears to use varying terms to describe fixed priced contracting,
 such as firm fixed price type and fixed rate, and thus it is unclear the type of fixed price
 contract the OIG is recommending. We currently use fixed rate contracts and task orders
 throughout the program. For example, as mentioned above, the subcontracts for
 construction under RAC contracts are fixed price. EPA also uses the Emergency and Rapid
 Response Services (ERRS) contracts, which are fixed rate time and material (T&M) for less
 complex construction projects.

OIG Response 3: We agree that fixed-price contracting cannot be used in all circumstances and
state that in the report. We revised the report to ensure it did not imply that fixed price
contracting must always be used. To avoid any confusion between fixed-price and fixed rate, we
changed the reference to a specific Region 7 contract at the end of chapter 2 to state “fixed price
per ton.”

 The Superfund program utilizes contract vehicles appropriate for the uncertain conditions that
 exist at its sites. The contract types used are based on many factors, including, but not limited
 to: resources, site conditions and characteristics, unforeseen risks and site cleanup objectives.
 While fixed rate and fixed price contracting has a place in the Superfund remedial program,
 such an approach has significant disadvantages that the report fails to appropriately
 acknowledge. We recommend that the report include a discussion of the undue risks to the
 Government and failures (e.g., cost increases from uncertain site conditions, change orders,
 and claims) of firm fixed priced type contracts with respect to subsurface and under water
 construction projects. What may work in Region 7, e.g., for above ground projects, may not
 work for complex projects in other regions, such as ground water sites.

OIG Response 4: We agree that fixed-price contracting is not suitable for all remedial actions.
However, we found the types of remedial actions that Region 4 and 7 funded with fixed-price
type contracts were similar to activities that other regions funded with other than fixed-price type
contracts. Region 4 did fund activities related to the treatment of ground water through fixed-
price task orders. Costs can increase beyond what was originally anticipated in both fixed-price
and CPFF contracts. For example, both types of contracts can be adjusted if unforeseen site
conditions exist. For the 12 RAC contracts that are CPFF, the discussion of whether a fixed-price
task order can be used to fund the activities is not occurring because the contract does not allow
for fixed-price. With an IDIQ contract, which is what we advocate in recommendation 1, fixed-
price task orders can be considered.

 Several regions have attempted to replicate the Region 7 site specific model with mixed
 success. While Region 4 did attempt a fixed price project, additional contamination was
 uncovered at the site, increased oversight was required to oversee the removal of the
 additional contamination, and the ultimate price of the project was higher than projected.




13-P-0208                                                                                              27
 Furthermore, remedial funding allocations late in the fiscal year make it extremely difficult to
 prepare and award fixed price contracts by September 30.
 OMB recognized that fixed price contracts might not be appropriate for projects similar to
 Superfund remedial cleanup work

 The purpose of the report states that the OIG conducted the audit in order to determine
 whether EPA is reducing the amount of high risk contracting activities, which include not
 only cost reimbursement and time and materials type contracts, but also non-competitive
 and sole source contracts awarded when only one bid or offer is received. The report
 identifies the initial OMB memorandum calling for Departments and Agencies to reduce
 their "high risk" contracting but only mentions the OMB memorandum dated October 27,
 2009, entitled "Increasing Competition and Structuring Contracts for Best Results", which
 acknowledges that, in some cases, where uncertain circumstances are present, it may be
 appropriate to use a "high risk" contract.

 Although OMB issued a caution regarding high risk contracts and directed Federal Agencies to
 decrease their use by ten percent, OMB did not direct the use of firm fixed price contracts in
 lieu of cost reimbursement or time and materials contracts.

 Conversely, OMB's implementing guidelines, included in the above memorandum, says "The
 President's Memorandum further states that government contracts should be structured to
 'minimize risk and maximize value' for the taxpayer. In most cases, fixed-price contracts will
 be best suited for achieving this goal because they provide the contractor with the greatest
 incentive for efficient and economical performance. In circumstances where there is
 considerable uncertainty regarding the requirements, however, cost-reimbursement contracts
 or, in more limited circumstances, time-and- materials or labor-hour (T&MILH) contracts may
 provide for a more effective allocation of risk between the government and the contractor."

 EPA selects the most appropriate contracts depending on the risk, in accordance with OMB's
 guidance. Recommending what would effectively be subjective performance measures for
 firm fixed price contracting, and holding staff accountable to those measures, is the equivalent
 of requiring the selection of a contract type irrespective of the judgment of the acquisition
 staff or the reasonableness of the approach. EPA, therefore, does not agree with the
 recommendation for performance measures, instead EPA will focus on strengthening the
 acquisition planning process to ensure the appropriate contract type is properly determined
 including firm fixed price type contracts where appropriate.

 OIG Response 5: We agree that where there is considerable uncertainty regarding the
 requirements, a cost reimbursement or other high risk contract may be appropriate. We
 disagree, however, with the Agency’s statement that EPA selects the most appropriate
 contract depending on the risk. We identified RAC contracts with identical statements of
 work, which according to the EPA’s guidance, is a basis for determining contract type. One
 of these contracts is a CPFF contract, while the other is an IDIQ contract. Because the
 statements of work are identical, the contract type should also be identical. For CPFF
 contracts, there is no ability to issue fixed-price work assignments, meaning the discussion
 of whether to use a fixed-price vehicle for remedial actions cannot occur.



13-P-0208                                                                                           28
 Benchmarking against the initial Contracts 2000 Strategy rather than the revised strategy
 is erroneous, and stating that revisions were due to a lack of leadership is subjective.

 References to the first Contracts 2000 Strategy and statements that a lack of leadership
 prevented EPA from moving away from high risk contracts are subjective. Although the initial
 Contract 2000 Strategy recommended dividing Superfund design, construction and oversight
 activities into two types of functional contracts, the strategy was amended with the Contracts
 2000 - Design Construction Decision. This is the document to which the OIG should refer
 when referencing Contracts 2000. In the amendment EPA clearly states the rationale for
 implementing a menu approach-"centered around the Agency's limited experience base to
 directly contract for and manage construction projects, and the in-house resources that would
 be needed to place and manage construction projects". A workgroup of EPA employees
 evaluated options and presented them for senior management's consideration and decision.
 The draft report improperly and without support characterizes that process as ''management
OIG Response 6: Our conclusions regarding the past lack of leadership are supported by
adequate evidence, including numerous interviews, and past management action or inaction.
When the Contract 2000 report was issued in 1999, it stated that there were opportunities for
the use of fixed-price, completion form, and performance-based contracting in the Superfund
program. The decision to allow a menu approach, as described in the Contracts 2000 –
Design/Construction Contracts memorandum was premised on all contracts being structured to
encourage the increased use of completion form, fixed-price, and performance based
approaches to ordering work. The 2004 Superfund study recommended that OAM and OSWER
work together to encourage the use of alternative contract types, such as performance based and
site specific contracts. Despite these recommendations, our report found the EPA has generally
continued to rely upon cost reimbursable type contracts and task orders for remedial actions.
 allowed the plan to be changed" or as a lack of leadership.

 The report creates an unsubstantiated correlation between firm fixed price contracts
 and increased competition, achieving socioeconomic goals, and cost savings.

 All contracts that are competed, including cost reimbursement contracts, can be structured to
 encourage small businesses' proposals and enhance competition. We encourage the OIG to
 be less definitive about the link between firm fixed price contracts and increased competition
 and the achievement of socio economic goals as other contracts types, e.g., the time and
 materials ERRS contracts, have achieved socioeconomic goals. Although certain fixed price
 contracts might make it easier to achieve competition or socioeconomic goals, all contract
 types can achieve these results.

OIG Response 7: Since 2006, Region 7 has continually had the highest percentage of
contracts awarded as “small business.” Region 7 staff informed us that the region’s use of
site-specific contracting is a major contributor to its small business achievements. EPA
headquarters staff told us that Region 7 is instrumental in helping EPA achieve its small
business goals.does not provide a balanced view of firm fixed price contracting.
 This report



13-P-0208                                                                                         29
 There is risk associated with any type of contract, and this report does not provide an accurate
 picture of the risks associated with using a fixed price contract or other type of contract
 vehicle. When competing work that is well defined, using fixed-price contracts may result in
 lower cost. Many of the projects addressed in Region 7 as site specific contracts are in this
 category. Uncertainty in site conditions, inherent at certain Superfund sites, may lead to
 uncertainty in project scope and higher costs under a fixed price scenario due to the contractor
 building in costs associated with the higher risk.

 Projects that involve subsurface and underwater actions, including groundwater remediation
 and sediment remediation, are difficult to characterize and uncertainties and findings of
 additional contamination may lead to more expensive cleanups if performed fixed price as
 contractors increase price to account for these uncertainties. While the Superfund program
 has performed site cleanups for over thirty years, each site and its unique topography and
 contaminant characteristics means that-each remedial action (RA) project is different and
 does not fit the mold of repetitive type work that is typical of fixed price contracts. In
 addition, change orders and claims may affect the final price of a contract, obviating
 potential cost savings anticipated at the beginning of the project. Region 4 encountered this at
 the Tower Chemical site, where the final costs after accounting for increased quantities and
 contaminants found onsite, in addition to the costs of the oversight contractor, resulted in
 costs similar to what had originally been anticipated under the RAC contract.
 Given the constrained budget facing the Superfund Remedial program, the funding
 requirements related to fixed price contracting presents a significant obstacle. An additional
 disadvantage to using fixed price contracts in a fiscally constrained environment is that fixed
 price contracts must be funded up front. When EPA awards direct construction contracts,
 such as Region 7’s site specific contracts, EPA must set aside the full value of the contract
 and is unable to leverage the funding. That is, in many situations, because of the manner in
 which funding is allocated to the Agency (e.g. under a continuing resolution), the Superfund
 Remedial program must incrementally fund construction projects. Funding remedial action
 construction cost reimbursement type contracts allows for incremental funding which
 stretches the limited Superfund dollars available for cleanup.

 Direct construction using fixed price contracts may require additional resources for EPA to
 oversee construction and handle change orders and claims. Region 7 designed and followed a
 human resource acquisition and development strategy that could be difficult for other
 Regions to implement. Region 7 uses its On Scene Coordinator's (OSCs) to assist the
 Remedial Project Managers (RPMs) in performing construction oversight. These resources to
 perform construction oversight may not be available in other Regions with multiple large,
 complex projects, such as Region 2 or 8. Current EPA full time equivalents (FTE) resources
 constrain hiring of sufficient RPMs and Contracting Officers for EPA to perform a high
 volume of fixed price construction projects. Given current budget constraints and likely
 reductions in FTEs, it will be difficult, if not impossible for other Regions to achieve Region
 7's level of technical capability and technical experience. Limited resources were one
 rationale behind the change in implementation of the Contracts 2000 Strategy.




13-P-0208                                                                                           30
 OIG Response 8: Our report does not recommend that EPA Regional offices adopt the
 Region 7 model, but does recommend that EPA look for increased opportunities to use
 fixed-price type contracts and assess the resources needed to achieve that goal. In fact, the
 Design/Construction Contracts Decision Memorandum stated that all contracts would be
 structured to encourage the use of fixed-price approaches when ordering work.

 RAC construction contracting and Site-Specific contracting are not equal and
 should not be compared.

 Statements in the report indicate a lack of understanding of how Superfund performs its
 remedial action construction and the Region 7 Site Specific approach. EPA uses the
 Remedial Action Contracts (RACs) to purchase the services of a contractor to serve as the
 construction manager of a project. Region 7 has developed the capability to perform
 construction management in-house, and thus like the RAC contractor, procures the remedial
 action construction contracts directly. Region 7 provides all of the oversight capabilities
 with Region 7 staff, including staff that perform field oversight, address contract change
 orders and handle contract claims. In order to provide an equal comparison between site
 specific contracts and RACs, the costs associated with construction oversight must be
 considered when site specific contracts are utilized. Furthermore, the report should
 recognize that construction, either subcontracted by a RAC or procured directly under a site
 specific contract are procured predominantly as a firm fixed price (under RACs) or a fixed
 unit price (under a site specific contract). So in many respects the Superfund Remedial
 program is benefiting from and using a fixed-price approach, albeit at a Subcontractor level.

 While Region 7 is to be commended for its success in developing the infrastructure to
 conduct direct construction contracting, their practices should not be used as a basis to apply
 it nationwide. The development of the infrastructure to perform direct construction
 activities is intensive and requires extra resources, training and FTE. Lessons gained from
 other regions' attempts to firm fix price construction projects indicate that it takes more than
 adjusting the contract type to be successful. We must also have the proper infrastructure and
 available funding to fully fund the contract. In fact, the decision to not develop a nationwide
 direct construction infrastructure at EPA was made at the inception of program in 1980;
 instead, EPA chose to collaborate with the USACE and use their existing infrastructure for
 cleaning up Superfund remedial projects. Although EPA may not be able to achieve a
 nationwide shift to fixed price construction contracting, we do anticipate more fixed price
 projects. Many of the five-year review projects are being performed via fixed rate task
 orders, and Regions are examining their work type and oversight workload to determine if
 other types of projects, such as long-term remedial projects, might have components of the
 work that can be fixed price. EPA anticipates that the guidance provided from both the
 program and OAM will continue a shift to fix pricing work where possible and appropriate.

 Data Analysis Approach is flawed
 The "judgmental sample methodology" approach calls into question the validity of the data
 sample selected. It is not clear what "judgmental" means and how or why the additional
 projects were selected. The OIG reviewed half of EPA's Regions using judgmental


13-P-0208                                                                                           31
 sampling. Both the random sample and sample methodology bring into question statements
 the OIG makes in the next chapter that "only" one Region is performing any particular
 activity. Without the data to support these statements, the OIG should be consistent and not
 make broad conclusions based on interviews covering 50% of the universe. Region 7 has two
 RAC contracts called Architect and Engineering Services (ACE). For consistency, it would
 have been appropriate to collect data from these contracts, when other Regions' RACs were
 being evaluated for activities other than remedial action.

OIG Response 9: A judgmental sample is a nonrandom sample selected based on the
opinion of auditors. As discussed in the Scope and Methodology, we reviewed contracts and
task orders from Regions 1, 4, 7, 8, and 9. We surveyed other regional offices and received
survey responses from Regions 2, 3, 5, 6, and 10. We also reviewed data on fixed-price site
specific contracts and RAC contracts awarded across all regions. Our goal was to gain a
broad perspective of contracting for remedial actions across the country, and we believe that
was accomplished via our methodology. In our opinion, our methodology and conclusions
ensure compliance with the Inspector General Act of 1978 and the December 2011 revision
of the Government Auditing Standards.

The use of opinions instead of data to explain how fixed price contracts are used in the
Superfund Program is flawed.

 The initial Contracts 2000 strategy for design and constructions was not implemented; it is
 disingenuous to state that it is not successful when it was amended and not used.
 Furthermore, the change to the Contracts 2000 strategy is not an example of the Regions'
 resistance to change. The Regions were legitimately concerned about funding uncertainties
 and the lack of necessary infrastructure to directly procure and manage multi-million dollar
 projects. Although the expertise to conduct direct procurement and management of
 construction contracts could be developed, it would cost more in funding, FTE, and time than
 the Agency had at that time, especially in light of the resources available through the USACE.
 The federal government has come to recognize these alliances through strategic sourcing
 initiatives, and OMB has issued directives to not recreate what is already available elsewhere
 in the government. Referring to the original report and stating that it was rejected and
 management allowed the plan to be changed dismisses the work performed in evaluating the
 possibility of implementing the plan and the rationale for why it was not. '

The RAC contracts were awarded several years prior to the President's and OMB's emphasis
on reducing the use of high risk contracts, thus they should not be measured against an
initiative that was not in place when they were awarded. In addition the statement that only
Regions 4 and 7 have reduced high risk contracting activities in the remedial program is not
based on fact. Without having looked at all Regions, it is not accurate to say "only" as the data
is for 50% of the universe. In addition, the OIG looks only at remedial actions when referring
to the remedial program, a much broader universe.

 The statement "most EPA Regional offices have resisted the use of fixed price" is
 subjective. Regional offices have not rejected the use of fixed pricing per se, but rather have


13-P-0208                                                                                           32
 chosen not to pursue firm fixed price approaches under direct construction contracting
 vehicles for the reasons cited previously.

 The statements that EPA "hands over responsibility" and "simply oversees'' are a gross
 misstatement. Remedial Project Managers (Remedial Project Manager) and Contracting
 Officers hold the ultimate responsibility for each project and ensure that the outcome of the
 project protects the public from the harm of hazardous materials. Projects are not "simply
 overseen" by the RPM, but monitored on a daily basis to ensure that all components of the
 project are proceeding appropriately.

OIG Response 10: We changed the language regarding the responsibilities of EPA
Remedial Project Managers.


 Points Requiring Clarification

 On page 4, the first paragraph. This paragraph needs additional language to differentiate the
 discussion from Contracts 2010. This is the EPA's response to OMB's directive in 2009 to
 reduce high risk contracts by 10%.

OIG Response 11: We identified this language in the Contracts 2010 Strategy Report,
page 20 (Intended Result), and page 21 (Examples of How to Get There).



 On pag12, we are unfamiliar with the references to the April 2004 Superfund study.
 Please provide citations.

OIG Response 9: U.S. EPA Study: SUPERFUND: Building on the Past, Looking to the
Future; April 22, 2004. Page 92 (bottom of page), and Page 93 (2nd full paragraph). We
provided EPA a copy of the study.

 In the attached tables clarify if the contract or task order was site specific, RAC or ERRS.

 Responses to Recommendations

 2-1 Replace all current cost-reimbursement RAC contracts at the end of the current
 base or option period with IDIQ contracts to allow the use of fixed-price task orders
 when appropriate.

 2-1 The Agency does not fully agree with this recommendation. Per FAR 16.1, selecting
 contract type is a matter for negotiation and requires the exercise of sound judgment. Factors
 that should be considered in this negotiation are risk, complexity of the requirement, expected
 price competition, urgency of the requirement, period of performance of the requirement
 (the longer the more risk), and the contractor's technical capability and financial
 responsibility. The FAR also states the objective is to negotiate a contract type and price that


13-P-0208                                                                                           33
 will result in reasonable contractor risk and provide the contractor with the greatest incentive
 for efficient and economical performance. President Obama's March 4, 2009,
 memorandum is not intended to supersede either the afore-mentioned regulatory guidance or
 the contracting officer's business judgment in selecting the appropriate contract type.
 However, the Agency does agree that contract files should reflect appropriate analysis and
 contain adequate support and justification for the contract type selected.

 Accordingly, as the Agency's current cost reimbursement remedial action contracts were in
 place prior to the issuance of the President's and OMB 2009 memoranda, EPA does not
 intend to modify our existing cost reimbursement remedial contracts at this time, before
 performing the analysis set forth in FAR 16.1. However, the Assistant Administrators for
 OARM and OSWER agree that the Agency should endeavor to decrease the number of cost-
 reimbursement contracts to the maximum extent possible, where appropriate, and will
 implement processes to ensure the required analysis is conducted to determine the
 appropriate contract type, and the results of that analysis are documented in the contract file.
 To that end, OAM recently published Interim Policy Notice (lPN) 12-03 on Acquisition
 Planning. The processes, procedures, and oversight associated with this lPN are intended to
 institutionalize more informed and collaborative decision making throughout the
 acquisition planning process, which includes the decision on contract type. Additionally, as
 anticipated by the requirements of the recently established Remedial Acquisition
 Framework, the Agency plans to review all of the Agency's contracts in support of the
 Superfund Remedial program in order to determine the appropriate time to re-compete
 under the new proposed remedial model described in the framework. The Agency has
 targeted completion of this review by June 2013.

 2-2 Develop performance measures for each region for the use of fixed-price contracts
 and task orders for remedial actions. The performance measures should be
 implemented in a way that holds the regions accountable (both the Superfund
 program staff and contracting staff) for decreasing the use of high risk contracts and
 task orders.
 2-2 The Assistant Administrators of both OARM and OSWER agree that there may be
 opportunities to replace existing contracts to allow for more fixed price vehicles within the
 Remedial program. It should be noted that President Obama's March 4, 2009, memorandum
 is not intended to supersede either the regulatory guidance or the contracting officer's
 business judgement in selecting the appropriate contract type. The Agency cautions the OIG
 against assuming that all cost-type contracts impose greater risk on the Government than other
 contract types, including firm fixed price type contracts in certain situations. In order to
 reduce the risk associated with contracts other than fixed price, the Agency is currently
 implementing a process to improve acquisition planning, practicing due diligence in terms of
 identifying the best contract type for the work required and documenting the basis for
 determining the contract type selected. To that end, OSWER and OARM will develop
 guidelines for use when selecting the most appropriate type of contract and task order, as
 applicable, considering results from the Acquisition Planning process, the Remedial
 Acquisition Framework, and the Centers of Expertise Study. Given the significant effort this



13-P-0208                                                                                           34
 will entail, OSWER and OARM have targeted completion of effort this by ·September 30,
 2013.

 2-3 As part of the implementation of the Contracts 2010 Strategy, provide training to both
 Superfund program and contracting staff on how and when less risky contracts and task
 orders should be used in the Superfund remedial program.

 2-3 The Assistant Administrators of OARM and OSWER agree that additional training is
 necessary and are committed to providing that training to both Superfund program and
 contracting staff. Training developed will consider results from the Acquisition Planning
 process, the Remedial Acquisition Framework, and the Centers of Expertise Study, and will
 include when and how less risky contracts and task orders should be used, including how to
 document the analysis leading up to the contract type selection, in the Superfund Remedial
 Program. OARM and OSWER have targeted completion of this effort by November 30,
 2013.
 2-4 Determine whether staffing changes are needed in each region to ensure that staff have
 the skills to manage the increased use of fixed-price contracts and task orders, and develop
 a plan for addressing the staffing needs.

 2-4 as indicated in 2-3 above, the Assistant Administrators of both OARM and OSWER
 agree to continue to ensure that staff possesses the skills necessary to manage all types of
 contracts ranging from cost reimbursement to firm fixed price. A recently initiated.and
 ongoing Centers of Expertise study is assessing staffing needs associated with
 implementation of new business processes such as prescriptive Acquisition Planning
 requirements. OARM and OSWER will monitor progress on these efforts on an ongoing
 basis through a robust training program and regular Contracts Management Assessment
 Team (CMAT) MAT reviews.
 3-5 Develop and implement a data quality plan for EAS to ensure the adequacy of data
 across all regions. The plan should include detailed instructions for ensuring contract
 types and task order pricing arrangement are input in EAS correctly and that
 procedures are established to verify the accuracy of the information.

 3-5 The Assistant Administrator for OARM agrees that data quality is important for
 effective contract management. OARM will evaluate the source of the discrepancies in the
 EAS data and, depending on the evaluation results, the Agency will implement appropriate
 corrective action to address proper coding on contract and task order pricing arrangements
 in EAS. The OARM will complete this by June 2013.

 3-6 Ensure that Region 1 has an approved QAP and members of Region 1's
 contracting staff are aware of the QAP's contents and requirements.

 3-6 Region 1's August 2012 QAP has been approved and posted on the OAM policy web­
 site, and staff are aware of the QAP's contents and requirements.

 Thank you for your review. If you have questions regarding these comments, please contact
 John Bashista in OARM or James Woolford in OSRTI.


13-P-0208                                                                                       35
 cc: 	 John Bashista, OARM/OAM
       James Woolford,
       OSWER/OSRTI Nigel Simon,
       OSWER/OPM




13-P-0208                         36
                                                                              Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Administration and Resources Management
Principal Deputy Assistant Administrator for Solid Waste and Emergency Response
Deputy Assistant Administrator for Solid Waste and Emergency Response
Principal Deputy Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Deputy General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0208                                                                                  37
